UNITED STATES DEPARTMENT OF AGRICULTURE

      OFFICE OF INSPECTOR GENERAL



       STATEMENT FOR THE RECORD
    OF THE HONORABLE PHYLLIS K. FONG
           INSPECTOR GENERAL


                  Before the


    COMMITTEE ON HOMELAND SECURITY AND
           GOVERNMENT AFFAIRS

                 U.S. SENATE


       To Accompany the Hearing Record
          Of Wednesday, July 11, 2007
Thank you, Chairman Lieberman and Ranking Member Collins, for inviting me to
submit a statement for the record on several issues of interest pertaining to the
independence, accountability, and operations of Federal Offices of Inspectors
General (OIG). I would also like to express my thanks to Ranking Member Collins
for her introduction of S. 680 in this Congress and to Senator McCaskill for her
support of the Inspectors General, as reflected in her recent introduction of S. 1723.


I have served as the Inspector General (IG) for the Department of Agriculture
(USDA) since December 2002.          Prior to that, I served as the IG at the Small
Business Administration from April 1999 until December 2002. My entire career in
executive-level positions in the Federal IG community spans 19 years, and I am a
career member of the Senior Executive Service (SES).


In addition to my service as USDA’s IG, I am currently the Chair of the Legislation
Committee for the President’s Council on Integrity and Efficiency (PCIE). Created
in 1981, the PCIE provides a forum for IGs, the Office of Management and Budget
(OMB), and other Federal officials to work together and coordinate professional
activities. The Legislation Committee consists of IGs from both segments of the IG
community---nine presidentially-appointed (PAS) IGs who are members of the
PCIE, and three IGs who were appointed by agency heads in Designated Federal
Entities (DFEs), and thus are members of the Executive Council on Integrity and
Efficiency (ECIE).    The ECIE provides a forum similar to the PCIE for the DFE
IGs.


The PCIE Legislation Committee serves as the IG community’s primary point of
contact   and   liaison   on   legislative issues   with   congressional   committees,
congressional offices, and the Government Accountability Office (GAO).             The
Legislation Committee is responsible for providing input to and receiving feedback
from Congress on legislation affecting the IG community as a whole.                The
Committee works toward developing consensus within the entire IG community
                                                                                        2


regarding major legislation impacting IGs; on some issues, however, there may be a
range of perspectives that reflect different IGs’ experiences and situations.


My statement today is submitted on behalf of the PCIE Legislation Committee and,
when appropriate, based upon my experience as an IG at two Federal agencies. I am
not representing the views of or speaking for the Administration in my statement.


                   Provisions Common to Both S. 680 and S. 1723


First, I will address the provisions of S. 680 and S. 1723 that are common to both
bills and of particular interest to the IG community.


Advance Notification to Congress of an IG’s Removal


Both S. 680 and S. 1723 provide that Congress should be notified 15 days prior to the
removal of a DFE IG. There is no mention made, however, of providing advance
notification to Congress in the case of the removal of a PAS IG. We recommend
that this section apply to all IGs. Moreover, we believe that 15 days might provide
insufficient time for effective review by Congress, and we recommend that the notice
period be extended to 30 calendar days prior to the proposed action to remove an IG.
This should allow sufficient time for congressional review and any discourse with the
President as to the reasons for the removal of an IG.


Qualifications of DFE IGs


Currently, the IG Act provides that PAS IGs must be appointed without regard to
political affiliation and solely on the basis of their integrity and “demonstrated ability
in accounting, auditing, financial analysis, law, management analysis, public
administration, or investigations.” Both S. 680 and S. 1723 would amend the IG Act
by requiring similar qualifications for DFE IGs. Although we believe that in practice
this usually occurs with appointments of DFE IGs, making these qualification
                                                                                                             3


requirements a statutory prerequisite for DFE IGs would ensure that qualified
candidates are recruited and would enhance their immediate credibility within their
establishment. The PCIE Legislation Committee supports this provision.


Compensation Issues Involving PAS IGs


Department of Interior IG Earl Devaney and Department of Justice IG Glenn Fine
testified on July 11, 2007, that a significant issue for the PAS IGs is the pay disparity
they encounter. Currently, a number of PAS IGs are ineligible for locality pay and
cost-of-living adjustments, are excluded from the benefits of the performance-based
pay system Congress established for career senior executives, must forego potential
bonuses to preserve OIG independence, and have their salaries capped by statute at
Level IV of the Executive Schedule, without the possibility of promotion. At a time
when IG responsibilities are steadily increasing and congressional committees,
agency heads, and the public look to IGs to ensure integrity in Government
operations, virtually all PAS IGs are paid at a level significantly below the average
annual compensation of the SES personnel they supervise.                               This disparity in
compensation is a significant concern for current PAS IGs and could have an
increasing impact on the Government’s ability to retain experienced IGs. Perhaps
more important, however, is the impact on the willingness of qualified and talented
Federal career executives to serve as PAS IGs.


Both S. 680 and S. 1723 propose to equitably remedy this situation by simply moving
PAS IGs from Level IV of the Executive Schedule pay scale to Level III. While this
adjustment would not completely address the pay disparity for PAS IGs, it would be
a positive step towards recruiting and retaining well-qualified IG candidates. 1


1
 We believe that the issue of DFE IG rank and pay also needs to be addressed. Section 9(b) of S. 1723
would provide that the IG of each DFE “shall, for pay and all other purposes, be classified at a grade, level,
or rank designation . . . comparable to those of a majority of the senior staff members of such designated
Federal entity (such as, but not limited to, a General Counsel, Deputy Director, or Chief of Staff) that report
directly to the head of such designated Federal entity.” We understand that the Vice Chair of the ECIE is
submitting a statement for the record which will address the position of the DFE IGs regarding pay and
bonuses.
                                                                                    4

Prohibition of Cash Bonuses or Awards


PAS IGs as a matter of long-standing practice do not accept cash bonuses or awards,
so as to avoid any potential questions regarding their independence and impartiality.
The PCIE Legislation Committee supports this provision with respect to PAS IGs.


PFCRA and Subpoena Authority


Both S. 680 and S. 1723 include provisions that the PCIE Legislation Committee
believes would improve the effectiveness of OIG audit and investigative activities.
First, the bills would amend the Program Fraud Civil Remedies Act (PFCRA) to
allow DFE IGs to utilize the Act’s processes to pursue false claims and statements
where the loss to the Government is less than $150,000. Presidentially-appointed
IGs already can utilize PFCRA to recover the loss of taxpayer dollars due to fraud,
and smaller OIGs should also have the ability to pursue lower-threshold fraud cases.
DFE IGs are not currently authorized to utilize PFCRA procedures because those
IGs had not been created at the time of PFCRA’s enactment.


Secondly, the bills would modernize IG law enforcement capabilities by clarifying
that IG subpoena authority extends to electronic information and tangible things.
This is an important clarification at a time when ever-increasing amounts of
information are stored electronically and technological advances are constantly
creating new forms of data, computer equipment, and data transmission devices.
Amending the IG Act to include this clarification on electronic information and
tangible things ensures that the IGs have access to all relevant physical evidence, no
matter its particular form, as we perform our duties and responsibilities.
                                                                                                      5


                                   The Provisions of S. 1723


Next, I will address the provisions of S. 1723 that are not in S. 680 that are of
particular interest to the IG community.


Term Appointment and Removal for Cause


Section 2 of S. 1723 would establish a renewable term of office of 7 years for both
PCIE and ECIE IGs and would authorize removal of an IG prior to the expiration of
the term for certain enumerated causes. The IG Act currently provides no specified
term of office for IGs; the only limit on the authority to remove IGs is a requirement
that Congress be notified of such removal.


We note that individuals occupying a number of other positions with identical or
analogous oversight functions in the executive branch may be removed only for
cause. For instance, the IG of the U.S. Postal Service and the Special Counsel may
be removed only for cause. In the legislative branch, the Comptroller General of the
Government Accountability Office possesses removal for cause protection.                           We
believe that removal for cause criteria would further congressional intent to provide
IGs with the independence necessary to carry out our responsibilities and would
better insulate IGs from undue influence. 2


We also note that there are a number of analogous functions within the executive
branch that have fixed terms of office. For example, the Director of the Office of
Government Ethics, the Special Counsel, and members of the Federal Labor
Relations Authority all have 5-year terms. Merit Systems Protection Board members
have 7-year terms. Other officials with similar duties but broader responsibilities,
such as the Comptroller General and the Director of the Federal Bureau of
Investigation, have terms of 15 years and 10 years, respectively.


2
 The removal for cause provisions in Section 2 of S. 1723 are very similar to the removal for cause
provisions for the Comptroller General of the Government Accountability Office. See 31 U.S.C. § 703(b).
                                                                                                          6



While the PCIE Legislation Committee understands that some may have concerns
about the effectiveness of these provisions, we believe that IG independence would
be enhanced by their enactment, particularly when coupled with a provision
requiring advance notification to Congress prior to removal of an IG. We would
welcome the opportunity to work with the Committee to clarify the removal for
cause criteria if there is concern as to their meaning and effect.


Establishment of a Council of the Inspectors General on Integrity and Efficiency


Section 4 of S. 1723 would create a unified IG Council to enhance coordination and
communication among OIGs and better serve the executive branch and the
Congress.       A unified council would promote the independence and unique
responsibilities of IGs by creating a forum for more sustained and organized IG
initiatives on a Government-wide basis.                     Just as individual IGs have dual
responsibilities to both the executive and legislative branches, so too would a
statutory unified council. For example, the Deputy Director for Management of
OMB would serve as the council’s executive chair and the council would also be
responsive and report to Congress, as appropriate. The bill would also establish a
necessary funding mechanism for the council’s institutional activities, such as
publishing an annual progress report; providing essential training programs for OIG
audit, investigative, inspection, and management personnel; and providing sessions
to orient newly-appointed IGs as well as to keep experienced IGs abreast of current
issues. 3 The PCIE Legislation Committee supports statutorily establishing a single
IG Council for all executive branch IGs.


We do, however, suggest that the Committee consider requiring the annual progress
report called for in proposed subsection 11(b)(3)(B)(viii) be issued jointly to the

3
  With regard to funding the Inspectors General Council’s activities, this could be handled through annually
appropriated funds or through alternative means. For instance, the Chief Financial Officers Council
receives some or all of its funding from rebates on Federal charge cards and other contracts pursuant to
Section 629 of Pub. L. 107-67.
                                                                                     7


President and the Congress. This change would then comport with and mirror the
dual reporting requirements that individual IGs have to the head of their agency and
to Congress.


In the area of accountability, the unified IG Council provision would permanently
establish an Integrity Committee (IC) to handle allegations of wrongdoing on the
part of an IG or certain OIG staff. The IC is a response to the question of “Who is
watching the watchdogs?”   The functions of the current IC are set forth in Executive
Order 12993. The bill includes several provisions to maintain quality and integrity in
IC operations, including a requirement to adhere to the most current Quality
Standards for Investigations issued by the IG Council or the PCIE/ECIE and
requirements to ensure fairness and consistency in the operations of the committee.
The bill would provide, for example, that the subject of an investigation have the
opportunity to respond to any IC report.


We have the following suggestions for the Committee’s consideration regarding the
IC provisions.


1. The bill (proposed subsections 11(d)(4)(A)(i) and (ii) of the IG Act) requires an IG
to refer to the IC any allegation against a "staff member" if the allegation cannot be
assigned to an executive branch agency and an objective internal investigation is not
feasible or an internal investigation may appear not to be objective. The bill would
require each IG annually to submit a designation of positions considered "staff
members" for the purpose of that section. This seems to be an unnecessary burden
that is not currently contained in E.O. 12993.             Rather than an annual
designation, we would suggest “staff member” be defined as follows in the proposed
subsection 11(d)(4):


       (B) STAFF MEMBER DEFINED---In this subsection the term “staff
       member” means--
             (i) any employee of an Office of Inspector General who reports directly
             to an Inspector General; or
                                                                                          8


               (ii) any other senior official of an Office of Inspector General when the
               Inspector General determines the conditions of subsections (4)(A)(i)
               and (ii) are met.

This definition would afford IGs the opportunity to address situations where the IG
does not designate a position, but later determines an allegation against the holder of
that position should be referred to the IC.


2. The proposed subsection 11(d)(5)(B) of the IG Act provides for IC review and
referral for investigation allegations of “wrongdoing” that are made against IGs,
direct reports to IGs, and other designated staff. The bill does not, however, define
“wrongdoing.” We note that this is a significant departure from the language in
E.O. 12993, which currently authorizes the IC to investigate an allegation only if
there is a substantial likelihood that the allegation discloses a violation of law, rule or
regulation, gross mismanagement, gross waste of funds, or an abuse of authority.
The use of the word “wrongdoing” may allow for a broader exercise of the IC’s
authority than is currently authorized. In addition, it is not clear whether the
removal for cause criteria would constitute the universe of “wrongdoing” that the IC
would be authorized to investigate.


3. Proposed subsection 11(d)(5)(B) of the IG Act also states the IC shall "refer to the
Chairperson of the Integrity Committee any allegation of wrongdoing determined by
the Integrity Committee to be meritorious that cannot be referred to an agency of the
executive branch with appropriate jurisdiction over the matter." We would suggest
some form of modifier be added to the standard of "meritorious," such as
“potentially” to mirror the language in E.O. 12993 and to avoid any perception of
prejudgment of an allegation.


4. Proposed subsection 11(d)(7)(C) of the IG Act states "The Chairperson of the
Integrity Committee shall report to the Executive Chairperson of the Council the
results of any investigation that substantiates any allegation certified under paragraph
(5)(B)." We believe the word "certified" was taken from E.O. 12993. However, the
bill uses the word "refer" rather than "certify" in proposed subsection 11(d)(5)(B).
                                                                                        9


Accordingly, the word "certified" in proposed subsection 11(d)(7)(C) should be
changed to "referred."


Our last comment concerning the creation of a unified IG Council pertains to the
treatment of legislative branch IGs. Although not specifically named as members of
the ECIE by executive order, we understand that the IGs at the Government Printing
Office, the Capitol Police, and the Library of Congress in practice are members of
the ECIE. Pending legislation would also create an IG at the Architect of the
Capital. Consideration needs to be given to the treatment of these legislative branch
IGs: whether to include them within the unified IG Council and whether to extend
to them the same statutory independence and operational authorities as are being
considered for PAS and DFE IGs.


Separate Legal Counsel for IGs.


Section 2(c) of S. 1723 would require that all IGs appoint a legal counsel that reports
directly to the IG.      We support the concept of separate legal counsel reporting
directly to the IG, believing that this is as critical to an OIG’s independence as
having independent auditors and investigators. However, there are some DFE OIGs
that have only a few employees. Consequently, some of the smaller OIGs could find
this provision difficult to implement without additional resources, particularly since
there is no requirement that this position constitute an additional position within an
OIG. We believe that careful thought needs to be given as to how this provision
would be implemented.


Direct Submission of Budget Requests to Congress and Personnel Authorities.


The PCIE Legislation Committee supports Section 3 of S. 1723, which authorizes
IGs to submit their annual budget requests directly to OMB and to Congress.
Although many IGs receive support from their agency heads in their appropriation
requests, this provision would further enhance IG independence, particularly where
                                                                                        10


an IG and an agency head disagree on the appropriate level of resources for the OIG.
This provision should, however, be discretionary with IGs as not all Federal agencies
and establishments participate in the annual budget and appropriation process.


Section 9(a) of S. 1723 would provide IGs with certain personnel authority with
respect to early out/buyouts, waivers of mandatory separation for law enforcement
officers, and OIG SES personnel. 4 While we fully support these provisions, we
recommend that Sections 8344 and 8468 of Title 5, U.S. Code also be added to this
grant of authority. These provisions deal with reemploying annuitants. At present,
an IG cannot go directly to the Office of Personnel Management (OPM) to seek a
waiver to reemploy an annuitant. An IG must go through his or her agency and
obtain the approval of the agency head. Just like the other proposed provisions that
give the IG authority to go directly to OPM for SES allocations and buyout
authority, it would be useful and efficient if the IGs were authorized to seek waiver
authority directly from OPM. For example, in the context of Hurricane Katrina and
the additional oversight responsibilities of the Department of Homeland Security
(DHS) OIG, it needed to draw upon the expertise of its retired annuitants (e.g.,
retired auditors and investigators). The process of getting these people back on board
to help in this emergency was slowed down by having to work through DHS rather
than being able to go directly to OPM for waivers.


Law Enforcement Authority for DFE IGs


Section 9(d) of S. 1723 would authorize DFE IGs to apply for full law enforcement
authority rather than having to apply for such authority on a case-by-case basis.
Presidentially-appointed IGs obtained this authority pursuant to the Homeland
Security Act of 2002, which allows them to make arrests, execute search warrants,
and carry firearms. This authority has been used effectively by PAS IGs. The bill
would make it available to those DFE IGs who seek such authority, once approved
by the Department of Justice. Of course, those DFE IGs would have to satisfy the

4
    5 U.S.C. §§ 8335(b), 8336, 8414, and 8425(b).
                                                                                      11


same requirements and adhere to the same standards regarding law enforcement
authorities as the PAS IGs must. We support this provision.


Recommendations on Filling IG Vacancies


The proposed subsection 4(c)(1)(F) of the IG Act contained in Section 4 of S. 1723
would require the unified IG Council to submit recommendations of three
individuals for appointment consideration for any IG vacancy. In general, we would
support a consultative role for the IGs or the proposed IG Council in filling IG
vacancies. It is our understanding that in the past, IGs were consulted from time to
time by OMB as to possible candidates for IG vacancies. While we would be willing
to serve as one resource for identifying possible IG candidates, it would not be
appropriate for us to be the only source of candidates or for the council to be
perceived as interfering with or duplicating the extensive background investigation
process already in place for PAS appointees.


Information on Web Sites of Offices of Inspectors General


In general, we support enhancements to agency web sites to make links to IG offices
more visible. We also support posting many OIG products on the IG web sites. In
our view, it is very important for IGs to provide transparency on how Government
operates. We believe that the majority of the IGs are currently posting audit and
inspection reports on their agency web sites. Accordingly, we have several
suggestions and comments concerning Section 12 of S. 1723.


1. The bill should clarify that it is referring to OIG audit and inspection or
evaluation reports, not reports of investigations. Traditionally, most reports of
investigation are not publicly released because they can discuss law enforcement
techniques, prejudice related criminal, civil, or administrative proceedings, or result
in unwarranted invasion of privacy or damage to reputation.
                                                                                        12


Even in the case of reports such as audits or inspections, care must be taken that
sensitive information that could jeopardize Government operations is not
inappropriately released, such as critical IT processes or operations or confidential
business or financial information submitted by outside parties or entities. If such
confidential information is not able to be protected, it could jeopardize the
Government’s ability to collect necessary and relevant information in the future. We
therefore recommend that this provision in the bill cross-reference the Freedom of
Information Act (FOIA) to make clear that OIGs do not need to post information
that is not subject to disclosure under FOIA. We suggest adding the following clause
at the beginning of subsection 12(c)(1)(B): “Consistent with such disclosure as is
required under 5 U.S.C. § 552a, ….”


2. We are concerned with the requirement in subsection 12(c)(1)(A) that addresses
the posting of OIG reports. We believe the 1-day posting requirement may not be
realistic, since many OIGs rely on their agencies to post material on agency web
sites. We recommend, instead, that the subsection be reworded to require IGs to
post audit, inspection, evaluation, or semiannual reports “as soon as is practicable”
after their issuance.


3. The proposed subsection 12(c)(1)(B)(iii)(I) requires that IG web sites be in a format
“that is searchable, sortable, and downloadable.” We have some concern with the
requirement that IG web sites or agency web sites have “sortable” capabilities. We do
not believe that many OIG or agency web sites have sorting capabilities. This might
require significant and costly IT upgrades before implementation is possible, and we
recommend that this be explored before becoming statutorily mandated.                If such
capabilities are cost prohibitive, then we recommend that the word “sortable” be
deleted from the subsection.


4. Subsection 12(c)(2) of S. 1723 would require each OIG to offer to the public a
service on its web site so that individuals would “automatically receive information
(including subsequent reports or audits) relating to any posted report or audit (or
                                                                                          13


portion of that report or audit).” We believe this would be extremely and
unnecessarily burdensome. OIGs have limited staff and resources, and it would
be costly and resource intensive to establish and maintain such a database and
notification system. We recommend that this provision be deleted. On balance, we
think it would be less burdensome for interested individuals to check on web sites
from time to time to see if there is a report of interest than to require IGs to maintain
such a system.


5. Subsection 12(c)(3)(B) of S. 1723 requires that IGs take such actions as are
necessary to ensure the anonymity of any individual making a report of fraud, waste,
and abuse through an OIG's website. This requirement does not recognize that there
will be instances when the disclosure of such individual's identity is necessary for
legitimate law enforcement or remedial purposes. We are concerned, additionally,
that it may not be technologically possible to assure anonymity of an individual,
given the placement of internet servers in various agencies and the technical
capabilities associated with their operations and maintenance. It would be more
feasible—and consistent with current IG Act requirements regarding employee
complainants—to require an IG to protect the identity of an individual making a
report on the web site.   We therefore recommend that this language be modified to
more closely track the assurances of confidentiality set forth in Section 7(b) of the IG
Act --- that the IG of each agency "shall not disclose the identity of any individual
making a report under this paragraph without that individual's consent unless the
Inspector General determines that such a disclosure is unavoidable during the course
of the investigation."


Alternatively, the bill could be reworded as follows:


       “(B) PROTECTION OF IDENTITIES.—The Inspector General of each agency
       shall take such actions as are practicable to protect the identity of any individual
       making a report under this paragraph.”
                                                                               14


This concludes my statement.       Thank you for the opportunity to provide the
Committee with our views on this important legislation. I look forward to working
with the Members of the Committee and your staff to improve the effectiveness of our
offices and the departments and agencies we serve.
